 

IN THE

Supreme Court of the Anited States

MAGHREB PETROLEUM EXPLORATION, S.A.
AND MIDEAST FUND FOR Morocco, LIMITED,

Petitioners,
Vv.

JOHN PAUL DEJORIA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,937 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 25, 2020.

0

Colin Casey‘Hogan
Wilson-Epes Printing Co., Inc.

  
